<html>
<title> - BATTLEFIELD SUCCESSES AND CHALLENGES- RECENT EFFORTS TO WIN THE WAR AGAINST ISIS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  BATTLEFIELD SUCCESSES AND CHALLENGES	 RECENT EFFORTS TO WIN THE WAR 
                              AGAINST ISIS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 17, 2018

                               __________

                           Serial No. 115-60

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
              
              
              
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-259 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dcbbacb39cbfa9afa8b4b9b0acf2bfb3b1f2">[email&#160;protected]</a>              
              
              
              
              
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Blake Farenthold, Texas              Jim Cooper, Tennessee
Virginia Foxx, North Carolina        Gerald E. Connolly, Virginia
Thomas Massie, Kentucky              Robin L. Kelly, Illinois
Mark Meadows, North Carolina         Brenda L. Lawrence, Michigan
Ron DeSantis, Florida                Bonnie Watson Coleman, New Jersey
Dennis A. Ross, Florida              Stacey E. Plaskett, Virgin Islands
Mark Walker, North Carolina          Val Butler Demings, Florida
Rod Blum, Iowa                       Raja Krishnamoorthi, Illinois
Jody B. Hice, Georgia                Jamie Raskin, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Jimmy Gomez, California
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna, General Counsel
               Brick Christensen, Senior Military Advisor
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                                 
                                 
                                 ------                                

                   Subcommittee on National Security

                    Ron DeSantis, Florida, Chairman
Steve Russell, Oklahoma, Vice Chair  Stephen F. Lynch, Massachusetts, 
John J. Duncan, Jr., Tennessee           Ranking Minority Member
Justin Amash, Michigan               Val Butler Demings, Florida
Paul A. Gosar, Arizona               Peter Welch, Vermont
Virginia Foxx, North Carolina        Mark DeSaulnier, California
Jody B. Hice, Georgia                Jimmy Gomez, California
James Comer, Kentucky                Vacancy
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 17, 2018.................................     1

                               WITNESSES

Sebastian Gorka, Ph.D., Former Deputy Assistant to the President
    Oral Statement...............................................     4
    Written Statement............................................     7
Mr. Michael Pregent, Adjunct Fellow, Hudson Institute
    Oral Statement...............................................    23
    Written Statement............................................    25
Mr. Phillip Lohaus, Research Fellow, Marilyn Ware Center for 
  Security Studies, American Enterprise Institute
    Oral Statement...............................................    33
    Written Statement............................................    35
Mr. Robert Anthony Pape, Jr. Professor, Political Science 
  Department, University of Chicago
    Oral Statement...............................................    46
    Written Statement............................................    48

                                APPENDIX

Statement for the Record of Michael J. Morell, submitted by 
  Ranking Member Lynch...........................................    72

 
  BATTLEFIELD SUCCESSES AND CHALLENGES- RECENT EFFORTS TO WIN THE WAR 
                              AGAINST ISIS

                              ----------                              


                      Wednesday, January 17, 2018

                   House of Representatives
                  Subcommittee on National Security
               Committee on Oversight and Government Reform
                                                     Washington, DC
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the subcommittee] presiding.
    Present: Representatives DeSantis, Russell, Duncan, Amash, 
Hice, Comer, Lynch, Welch, and DeSaulnier.
    Also Present: Representatives Jordan, Meadows, and 
Krishnamoorthi.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    We are here today to learn more about the Trump 
Administration's battlefield successes against the Islamic 
State. Since coming into office almost a year ago, President 
Trump has made great strides in the war against ISIS. At the 
time of his inauguration, the Islamic State controlled major 
cities in Iraq and Syria. The Islamic State's black flag flew 
over Raqqa in Syria and over Mosul in Iraq. Today, both cities 
are liberated. ISIS lost thousands of square miles in territory 
at an astonishing rate.
    Unfortunately, the American people are not seeing this good 
news story. Instead, they see nightly stories in the mainstream 
press about Russian interference and other issues. The American 
people deserve to know the facts about what changed between 
administrations and how President Trump is keeping us safe. We 
are here, then, to talk about real, concrete successes and what 
the United States Government can do to build on these wins to 
ensure the safety of the American people.
    We have before us a distinguished panel of experts with 
deep national security experience.
    Dr. Sebastian Gorka served as Special Assistant to 
President Trump and advised the President on the existential 
threat posed by radical Islamic terrorism. He has a 
distinguished career of service in counterterrorism, is on the 
advisory board of the Council for Emerging National Security 
Affairs. We look forward to his testimony and thank you for 
coming.
    We will also hear from Mr. Michael Pregent, an Adjunct 
Fellow from the Hudson Institute. He is a former intelligence 
officer with nearly 30 years of experience and is an expert on 
the Middle East and North Africa. We hope he can shed light on 
the future challenges we face against ISIS and what we can 
expect moving forward.
    We are also joined by Philip Lohaus, a research fellow in 
the Marilyn Ware Center for Security Studies at the American 
Enterprise Institute. He is an expert on unconventional and 
emerging national security challenges. He served as an embedded 
analyst with the Department of Defense and the Multinational 
Force-Iraq, and also embedded with the U.S. Army in eastern 
Afghanistan. We thank him for coming and for his testimony.
    We also have Dr. Robert Pape, a professor of political 
science at the University of Chicago. He has studied this 
subject in detail and written numerous books on the topic. We 
look forward to his perspective on this matter and thank him 
for coming.
    I am confident we can do more in this battle against 
radical Islamic terrorism. I am heartened by the President's 
dedication to our military and his emphasis on defeating, not 
simply deterring, ISIS. The days of feckless leadership, of 
underestimating our foe, those days need to be over. The naive 
declarations that ISIS is simply a JV squad, those days are 
over. We have an administration that appreciates the danger 
posed by the Islamic State and I think critically is actually 
playing to win against the Islamic State.
    I hope the witnesses can shed light on what the 
administration has gotten right, but also what we can improve 
on, and where we go from here, because the successes, while 
real, are not the end of the ballgame.
    So, thank you, and I will yield to the Ranking Member, Mr. 
Lynch, for his opening statement.
    Mr. Lynch. Thank you, Mr. Chairman. It is good to join you 
in this hearing to examine the progress of efforts to combat 
the terrorist group known as the Islamic State, or ISIS. I 
would also like to thank today's witnesses for their 
willingness to help this subcommittee with its work.
    As reported last month by the Combined Joint Task Force 
Operation Inherent Resolve, ISIS has no capital, no physical 
caliphate, and across Iraq and Syria has lost nearly all of its 
territory that they once held. Since the establishment of the 
U.S.-led coalition to combat ISIS by President Obama back in 
2014, the terrorist group has lost nearly 40,000 square miles 
of its claimed territory and currently holds approximately 
2,000 square miles.
    ISIS has also been reduced in deployed force strength from 
peak estimates of tens of thousands of insurgent fighters to 
less than a thousand. The liberated territory includes the 
former ISIS stronghold of Mosul, Iraq, recaptured by U.S.-
backed Iraqi security and Kurdish Peshmerga forces last July 
following a nine-month effort that began in October of 2016. 
The self-declared ISIS capital of Raqqa, Syria also fell in 
October of 2017 to the U.S.-supported Syrian Democratic Forces.
    However, the decimation of ISIS territorial control does 
not signify the outright defeat of a terrorist organization 
whose motto is remaining and expanding. In a statement 
submitted for the record, former Acting Director of the CIA, 
Michael Morell, who served under both George W. Bush and the 
Obama Administration, notes that the elimination of the so-
called caliphate cannot be confused with the elimination of 
ISIS itself. In the wake of surmounting battlefield losses, 
insurgent fighters have moved underground to perpetrate 
traditional and destabilizing terrorist attacks in the region 
while continuing to rely on affiliate organizations and social 
media to direct or inspire terrorist attacks globally.
    I ask for unanimous consent to enter into the record 
Director Morell's statement into the official hearing record.
    Mr. DeSantis. Without objection.
    Mr. Lynch. The Combatting Terrorism Center at West Point 
similarly reports that following the fall of Mosul, ISIS 
leadership made a calculated decision to withdraw its fighters 
from further sustained clashes with regional security and 
coalition forces in the city of Tal Afar in the town of Hawija 
in Iraq, in contested areas along the Euphrates River Valley, 
and even in the battle for Raqqa. Their sole purpose was to 
preserve manpower for a pivot to an all-out insurgency and the 
use of guerilla tactics, including hit-and-run attacks on 
secure areas by small units, the assassination of security 
personnel, and the recruitment of new members among displaced 
civilians for suicide bombings.
    We have continued to witness this marked shift to guerilla 
warfare in the form of a coordinated terrorist attack committed 
by ISIS operatives in Iraq, Syria, Afghanistan, and other 
regional countries. Just this week, two suicide bombers 
reportedly associated with ISIS sleeper cells killed nearly 40 
people at an open-air market located in Baghdad's Tayran 
Square, marking the first major attack in the Iraqi capital 
since Iraqi Prime Minister Haider-alAbadi declared the victory 
over ISIS. This attack came on the heels of an ISIS suicide 
bombing detonated at a market in Kabul, Afghanistan on January 
4th that killed at least 20 people, and another at a Shia 
cultural center in Kabul on December 28th that killed more than 
40 people.
    The persistent threat of ISIS-directed or inspired attacks 
in the West also remains. Last week the Department of Justice 
announced the indictment of Akayed Ullah on terrorism and 
explosives charges for his detonation of a bomb in a subway 
station near the Port Authority bus terminal in New York City 
in December of 2017. Ullah stated in his initial law 
enforcement interview that, quote, ``I did it for the Islamic 
State.'' This attack followed an ISIS-inspired truck attack in 
November of 2017 along the Hudson River bike path in New York 
that killed eight people.
    Clearly, our national security strategy must adapt to 
combatting a terrorism group that the commander of the U.S. 
Central Command, Joseph Votel, recently deemed a different kind 
of organization that has been very adaptive. We should all be 
concerned that at this point we lack a fully articulated and 
detailed plan to address the remaining pockets of the ISIS 
insurgency in Iraq and Syria, or implement a full-spectrum 
response to combat the rise of affiliate organizations in 
Libya, the Philippines, the Sinai, and other areas, which will 
require close collaboration with our international partners.
    President Trump has proposed a 32 percent cut, or a nearly 
$19 billion cut, from the State Department budget and has left 
vacant the U.S. ambassadorships in Turkey, Saudi Arabia, Qatar, 
and other key nations in the fight against ISIS. We simply 
cannot combat ISIS by neglecting the long-term security and 
political stability of the region.
    Thank you, Mr. Chairman. I look forward to discussing these 
and other issues with today's witnesses, and I yield back the 
balance of my time.
    Mr. DeSantis. I thank the gentleman from Massachusetts.
    The Chair notes the presence of our colleague, the 
gentleman from Ohio, Mr. Jordan, and I ask unanimous consent 
that he be allowed to fully participate in today's hearing.
    Without objection, it is so ordered.
    With that, I am pleased to introduce our witnesses. We have 
already mentioned in my opening statement Dr. Gorka, Mr. 
Pregent, Mr. Lohaus, and Dr. Pape. Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. So if you can all please rise, raise your 
right hand.
    Do you solemnly swear that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    All witnesses answered in the affirmative.
    You can be seated.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. You will note the clock in front of you 
shows your remaining time. The light will turn yellow when you 
have 30 seconds left, and red when your time is up. Your entire 
written statement will be made part of the record, and in the 
question and answer period you will obviously be able to hit on 
points that you may not be able to reach in your opening 
statement. So please abide by that time limit, and remember to 
turn the microphone on before speaking.
    With that, I will recognize Dr. Gorka for 5 minutes.

                       WITNESS STATEMENTS

                  STATEMENT OF SEBASTIAN GORKA

    Mr. Gorka. Thank you, Chairman DeSantis. Thank you, Vice 
Chair Russell and Ranking Member Lynch, for this opportunity to 
address the subcommittee today.
    To begin, I would like to reiterate what the Chairman has 
already stated. This is perhaps one of the greatest untold 
stories of the last 11 months, meaning this administration's 
success against ISIS, along with the untold story or the story 
which isn't getting enough attention with regards to the 
rebounding U.S. economy.
    My message is a very simple one. The victory or victories 
against ISIS are a function of the first rule of war. One must 
not only have the capabilities to win, but one must have the 
will to win. What happened at 12:01 on January the 20th last 
year is that we have a new commander in chief who had the will 
to win and to devolve the decision-making, the military 
decision-making to the right commands and the right commanders 
in the field so that will could be translated into successes on 
the battlefield.
    We had been told by the last president that ISIS represents 
a generational threat to the United States. It seems as if 
President Trump has crunched a generation down to just a few 
months. How do we know this? ISIS, less than three years ago, 
held territory in more than three countries of the Middle East 
and had 18--according to the NTCT, the National 
Counterterrorism Center, had 18 fully functional affiliates in 
18 different countries around the world. It was making, 
according to the Financial Times, $2 million every 24 hours in 
illicit oil sales, racketeering hostage-taking, and even 
through its local taxation system. And most important of all, 
ISIS was the first jihadi organization in almost 100 years to 
successfully reestablish a theocratic caliphate.
    The Trump Administration, which I had the honor of serving, 
we made the destruction of the physical caliphate our number-
one priority, and as the Vice Chairman has already noted, we 
have already succeeded thanks to our military forces in the 
field. None of the above attributes of ISIS is true today. It 
is not a caliphate, it does not hold significant amounts of 
territory, and it no longer has more than 6 million people 
living on the territory of that so-called caliphate.
    Why is this? Because of the D-ISIS strategy, the defeat 
ISIS strategy that was implemented by the President and by 
Secretary Mattis. What is the most simple summary of the D-ISIS 
strategy? Very simply, we went from a war of a thousand cuts, 
the so-called attrition strategy that was nibbling at the edge 
of a global problem, to a strategy of annihilation under 
Secretary Mattis, and it has worked. A very clear metric of 
this, on one day recently more than 1,000 ISIS jihadists 
surrendered. We have never, ever seen this before in modern 
jihadist history. Why? Because the jihadist believes if he dies 
in a war to defeat the infidel, then he will go straight to 
heaven. They don't usually surrender. Now they do.
    In addition to the strategy changing from attrition to 
annihilation, we have also seen a far more intangible change, 
which is the morale of our armed forces. The decision-making 
authorities have been divested to the commanders in the field. 
Under the last administration, even tactical targeting 
decisions were taken inside the NSC. The NSC should be the 
place for policy and strategy, not tactical or even operational 
decisions. That was changed under the new administration.
    As one tier, one operator told me when I was very fresh to 
the White House, we understand now the commander trusts us and 
has our back, and that has an unprecedented effect on the 
morale of our forces and their capacity to execute their 
mission.
    Lastly, there is the aspect of the morale amongst our 
partners and allies. With the President's Riyadh speech, he 
took them to task as a friend to say they must clear their 
houses, they must target and isolate the extremists in their 
places of worship and in their communities, and they have done 
so, especially with the GCCC taking on Qatar as its prime role 
as a funder of extremism throughout the world.
    In sum, we have gone from a generational threat being 
crushed in just a matter of months. But the war is not won. As 
we look forward, the Trump Administration must focus on its 
counter-ideological policies. We must make the black flag of 
jihad as reviled as the Nazi swastika. That will take a full-
throated counter-ideological push. I have recommended in my 
summary the Active Measures Working Group from the Cold War and 
the closer cooperation with our partners in the field, our 
Muslim allies, to delegitimize the ideology of all groups that 
share the jihadi creed.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Gorka follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you. The gentleman's time has expired.
    Mr. Pregent, you are up for 5 minutes.

                  STATEMENT OF MICHAEL PREGENT

    Mr. Pregent. Chairman DeSantis, Ranking Member Lynch, and 
distinguished members of the Subcommittee on National Security, 
on behalf of the Hudson Institute, I am honored to testify 
before you today about the successes against ISIS and the 
challenges that remain.
    Both the Obama and Trump Administrations achieved success 
against ISIS. Under President Obama, ISIS lost the Mosul Dam, 
ISIS was defeated trying to take the Syrian town of Kobane in 
Syria and lost control of Tikrit, Ramadi, and Fallujah in Iraq. 
Under President Trump, ISIS lost its caliphate capitals of 
Mosul in Iraq and Raqqa in Syria, and its stronghold of Deir 
ez-Zor.
    We learned early on that ISIS lost territory every time it 
faced a capable force backed by U.S. airpower. The first 
example of this was the battle over the Mosul Dam in 2014 where 
the Kurdish Peshmerga, backed by U.S. Special Operation Forces 
and U.S. air power, retook control of the Mosul Dam and handed 
ISIS its first defeat.
    The second example was Kobane. In October 2014, Secretary 
of State John Kerry indicated that preventing the fall of the 
Syrian town of Kobane to ISIS was not a strategic U.S. 
objective. As ISIS moved on Kobane, international media 
broadcasted ISIS maneuvers and artillery barrages on the city 
in broad daylight. ISIS was winning, and it was being 
televised. The administration, embarrassed by this, finally 
authorized U.S. Special Forces to partner with Peshmerga forces 
and call in airstrikes on ISIS, and ISIS was handed its second 
loss.
    The key lesson here that emerged from both Kobane and the 
Mosul Dam was that the clear and hold force was from the area 
and had a vested interest in fighting to keep ISIS out. The 
most important aspect of a clear and hold strategy that was 
tested and proved successful during the surge of 2007 in Iraq 
basically is that the force from the area has a vested interest 
in keeping it out. So the most important aspect of that 
strategy is to use local force, and it has to be empowered to 
keep ISIS out. It has to be empowered to do so.
    After Kobane and the Mosul Dam, operations to take back 
Tikrit, Ramadi, Fallujah, and Mosul in Iraq were done with 
predominantly Shia forces, with the support of IRGC militias. 
In other words, the ``clear'' phase has been touted as a 
success, but the ``hold'' phase will not hold without Sunni 
forces empowered by their central government to protect Sunni 
areas. It is critically important that the ``hold'' force 
reflect local political dynamics for there to be success. This 
is not happening in Iraq or Syria.
    Obama and Trump have key differences in strategy, but also 
unfortunate similarities. The Obama Administration's anti-ISIS 
strategy took away from the combatant commander the decision-
making process, resulting in lost opportunities to kill and 
capture targets of opportunity. It publicly touted victories 
hours after successful raids against ISIS, killing the 
intelligence community's ability to exploit ISIS networks and 
conduct follow-on raids, and it allowed the IRGC Quds Force to 
increase its influence and presence in Iraq and Syria.
    The Trump Administration's strategy has pushed resources 
and decision-making back to the combatant commander, restoring 
authorities to break the will of the enemy. It has expanded our 
Special Operations missions to kill and capture key ISIS and 
al-Qaeda leadership throughout the globe, and allowed the time 
for our intelligence agencies to exploit intelligence before 
touting success to the media and to the terrorist organizations 
themselves. When you tell a terrorist organization that you 
have effectively conducted a raid hours after that raid, they 
throw away their SIM cards and they go to the mattresses, and 
it sets back the intelligence community big time.
    One of the things, unfortunately, that the Trump 
Administration is continuing to do is it is continuing to stand 
by while the IRGC Kuds Force increases its influence and 
presence in Iraq and Syria.
    So now that ISIS has lost territory, challenges remain in 
holding liberated terrain with non-Sunni Arab forces. ISIS 
sought out ungoverned spaces in Iraq and Syria where 
disenfranchised Sunnis were oppressed by a sectarian 
government. That dynamic exists today in both Iraq and Syria. 
ISIS continues to seek out and operate in areas where Sunnis 
are distrustful of their government, be it sectarian, secular, 
or even Sunni. ISIS operates in the Sunni Pashtun areas of 
Afghanistan, in Pakistan, in Egypt's Sinai, Yemen and Libya, 
and the list goes on.
    ISIS has lost territory but has not been defeated in Iraq 
and Syria. ISIS still operates in liberated areas, following 
the insurgent al-Qaeda model, as demonstrated by the two 
suicide attacks in Baghdad resulting in the loss of 38 
personnel. The Institute for the Study of War has an ISIS 
control map. That map still shows ISIS operating in most areas 
declared liberated by the U.S. and Baghdad.
    Losing territory is phase one of many. The next phase is 
building and partnering with Sunni forces capable of 
effectively holding territory. These phases are the most 
important and are not likely to happen due to continued U.S. 
deference to Russia and Iran and Syria, and to Baghdad and Iran 
and Iraq. If this is not changed, we simply reset the 
conditions that led to ISIS to begin with.
    [Prepared statement of Mr. Pregent follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    The Chair now recognizes Mr. Lohaus for 5 minutes.

                  STATEMENT OF PHILLIP LOHAUS

    Mr. Lohaus. Chairman DeSantis, Ranking Member Lynch, and 
honorable members of the Subcommittee on National Security, I 
am honored by the opportunity to testify before you today as 
you examine our nation's recent efforts to defeat the Islamic 
State.
    My testimony will show that while the Obama 
Administration's approach incrementally degraded the Islamic 
State's grip on swaths of Iraq and Syria, the Trump 
Administration's timely reforms have accelerated America's 
gains against the Islamic State. I caution that these gains 
should not obscure the amount of work left to do to defeat ISIS 
and jihadist terrorist groups more generally. Doing so will 
require adjustments to our strategy, a few of which I will 
discuss today.
    In response to the rise of the Islamic State, President 
Obama took a measured and cautious approach to reestablishing 
Iraq's internal security. He relied primarily on conducting 
limited air strikes and to putting a small cadre of Special 
Operators to build the capacity of the fledgling Iraqi armed 
forces. A similar though more restrictive approach 
characterized our efforts against ISIS in Syria. In both cases, 
partner forces did eventually grow more adept at fighting ISIS, 
but only after the latter had weakened significantly.
    The White House's decision-making style impeded rapid 
progress against the Islamic State. This is without doubt. 
Their risk aversion, inefficient target nominations process 
and, above all, involvement in day-to-day operational and 
tactical decision-making added unnecessary friction to the 
decision-making process. These policies made for a time-
consuming approach to a problem that required rapid responses.
    Despite this, one cannot deny that progress has been made 
in the fight against the Islamic State, particularly in Iraq 
and Syria. I would echo the comments made earlier by the 
Chairman and Ranking Member in that regard. The siege of Mosul 
resulted in the ouster of Islamic State from that city, as did 
the siege of Raqqa. As of October 2017, territory controlled by 
ISIS had shrunk to isolated pockets mostly along the Iraq-Syria 
border.
    None of this would have been possible without the valiant 
efforts of American troops and partner forces. Their efforts 
should be applauded. However, progress in the fight against 
ISIS may have occurred sooner, or its rise may have been 
prevented entirely if friction points between the military and 
its civilian leadership had not impeded America's 
responsiveness.
    The Trump Administration has streamlined the executive 
decision-making process and authorized a more aggressive 
posture towards the Islamic State. For one, they appear much 
more willing to rely on the expertise of military advisers. 
This has made a difference. From personal experience, I have 
seen how empowering decision-makers and operators on the ground 
enhances operational responsiveness and increases joint and 
combined synergies and operations.
    Trump has also signaled a willingness to dedicate more 
resources to the fight. He deployed, for example, 400 Marines 
and Army Rangers to Syria in advance of the siege of Raqqa, 
increased the pace of air strikes within U.S. Central Command, 
and approved the training of YPG fighters in Syria. These 
developments have been timely and appropriate.
    These successes aside, much more work remains to be done to 
defeat the Islamic State and other extremist groups around the 
globe. An effective counterterrorism strategy must go beyond 
air strikes and Special Operations direct-action missions. The 
Administration is also yet to articulate U.S. policy toward a 
post-Islamic State Iraq and Syria. The danger remains that 
recent gains will be viewed as signs of total victory and 
therefore used as a reason to reduce America's involvement in 
the region. Doing so would be pennywise but pound foolish.
    Defeating a group like ISIS and other jihadist groups will 
require more than just military victories on the battlefield. 
It will require a sustained commitment to our partners and 
allies and the creation of new ones. It will require an 
understanding of the ideological appeal of extremism and 
efforts to reduce that appeal. It will require a clever and 
coordinated application of all sources of national power. Above 
all, it will require an understanding of the long-term and 
ideological nature of this fight.
    There are several things that our political leadership and 
decision-makers could do to improve our global position vis-a-
vis Islamic extremists. First, the White House should map out 
the role that individual agencies will play in implementing the 
counter-jihadist terrorism provisions of the recent National 
Security Strategy. To name just two examples, the Department of 
State should redouble public diplomacy efforts that incorporate 
local partners whenever possible in vulnerable countries around 
the world. I would second Dr. Gorka's attestation to taking a 
look at the Active Measures Working Group from the Soviet Union 
era, which gives a great example of how interagency groups can 
combat these types of threats. And the Department of Defense 
and intelligence agencies for their parts should emphasize the 
importance of military information support operations, human 
intelligence and Special Forces. Bombing campaigns and direct-
action missions cannot succeed without or be replaced by the 
knowledge gained by these ground assets.
    For its part, Congress could consider revising U.S. code to 
better reflect the overlapping nature of government-wide 
counterterrorism efforts.
    It is accepted in the defense community that strategy 
equals ends plus ways plus means. Compared to jihadist groups, 
the United States does not want for means. If America's goal is 
to move the needle from degrading ISIS to finally defeating it, 
the ways and ends, however, will require ongoing examination.
    I thank the committee for the opportunity to discuss these 
issues, and I look forward to your questions.
    [Prepared statement of Mr. Lohaus follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Dr. Pape, 5 minutes.

             STATEMENT OF ROBERT ANTHONY PAPE, JR.

    Mr. Pape. Thank you very much for having me. There is a 
slideshow that will be starting in just a moment.
    ISIS has been effectively defeated as a territorial entity 
in Iraq and Syria, a military victory that makes America safer. 
This military victory is due not to any one person or any one 
president. This is America's victory due to the steadfastness 
of the American people; our superb military, diplomacy, and 
intelligence agencies; our regional allies like Qatar that 
provided an air base for our bombers; large ground forces in 
Iraq and Syria; and an international coalition that has grown 
every year since 2014.
    Next slide, please.
    The key to our success was the application of a consistent 
hammer and anvil strategy. In effect, Western air power and 
local ground power worked together like a hammer and anvil to 
smash ISIS to bits, while Special Forces and intelligence 
coordinated the effort.
    Next slide.
    Our hammer and anvil strategy progressively succeeded over 
three years and over three phases under the leadership of two 
presidential administrations.
    Next slide.
    Phase 1, the containment of ISIS expansion, occurred in the 
fall of 2014. Once ISIS surprised the world by taking Mosul, 
the most urgent problem was to prevent ISIS from going further 
to seize oil fields and other resources in Iraq that could have 
vastly increased the group's power and threat. The Obama 
Administration reacted quickly and decisively, leading a 
coalition to use air power like a hammer to smash numerous ISIS 
military offensives and contain it.
    Next slide.
    Phase 2, rollback, began in early 2015. The coordination of 
air power and ground power produced results almost immediately, 
with large portions of ISIS territory falling by the summer.
    Next slide.
    Rollback was nearly complete in Iraq by the time 
administrations changed. As you can see, by February 2017 our 
coalition had seized about two-thirds of Mosul, the heart of 
ISIS in Iraq, controlling the large grey areas to the west.
    Next slide.
    By the end of the Obama Administration, over half of ISIS-
controlled territory had been liberated, the large green areas. 
Equally important, these two years established the essential 
mobilization and coordination of Kurdish and Iraqi government 
forces that would enable the final push in Phase 3. So when the 
Trump Administration took office, ISIS was losing fast, and 
America's coalition was a well-oiled machine, in a position to 
finish off the group.
    Next slide.
    Phase 3 was the final push in Syria that completed ISIS' 
defeat as a territorial entity. What exactly changed under the 
Trump Administration? Two things, one good and one problematic. 
The good change was cooperating tacitly with the Russians and 
the Syrian government so that the Kurdish-led forces could take 
Raqqa and other areas north of the Euphrates while Syrian 
government forces could take Palmyra and the area to the south 
of the river. This change made America's strategy of hammer and 
anvil more effective in Syria and accelerated ISIS loss of 
territory there.
    Next slide.
    The problematic change was over-escalation of air power. As 
this slide shows, both the escalation of air strikes and spikes 
in civilian casualties related to the coalition's air strikes 
occurred within weeks of the new administration. The sharp 
increase in civilian casualties is not just a moral issue. 
These casualties pose a strategic threat to the United States 
because they significantly amplify the propaganda that ISIS and 
other terrorist groups rely on to inspire people to attack 
America. Let's see how they do it.
    Next slide.
    Just last November, ISIS released Flames of War 2, a video 
targeting Westerners with powerful segments focused on how the 
escalation of bombing has killed children, and the group calls 
for revenge.
    Please show the video.
    [Video shown.]
    Mr. Pape. Under the Obama Administration, we saw similar 
ISIS video propaganda related to drone strikes which was 
leveraged to justify attacks against the West, but nothing this 
extreme.
    Sir, if I may just have 20 more seconds?
    Mr. DeSantis. Twenty, all right.
    Mr. Pape. The next slide.
    The main danger for the future is that we declare victory 
and walk away. ISIS remains a threat. The root cause is not 
just ISIS' ideology but its power to take advantage of 
political grievances and the disenfranchisement of millions of 
Sunnis. Without a political strategy to address this problem, a 
new ISIS 2.0, worse than the past, could emerge.
    [Prepared statement of Mr. Pape follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you. The gentleman's time has expired.
    The Chair now recognizes himself for 5 minutes.
    Looking forward, one of the reasons why ISIS was able to 
inspire folks in this country via social media was because of 
the existence of this caliphate. People actually thought that 
was a romantic concept. So, Mr. Pregent, do you think, having 
broken the caliphate--obviously, people can still be inspired, 
but do you think that that is helpful in combatting the 
inspiration for terrorism here at home and in places like 
Western Europe?
    Mr. Pregent. Thank you for the question. What we saw early 
on, when ISIS had success, the foreign fighters were coming 
into Iraq and Syria. But after a defeat or a loss of territory, 
that foreign fighter flow stopped. It ebbed. Foreign fighters 
tried to leave the caliphate. They were captured. They were 
executed by ISIS, and ISIS fighters who had actually lost 
territory were being executed by ISIS as well.
    So what we saw early on was that the brand attracted people 
to the caliphate when it was successful, and when it lost 
territory that flow started to ebb.
    Mr. DeSantis. Dr. Gorka, when I was in Iraq back in '07, 
'08, we had pretty restrictive rules of engagement. I think 
that was under Bush. Under Obama, I think it was similar or 
even more restrictive. Was there an effort to obviously 
delegate to the commanders but say, look, fighting with one 
hand tied behind your back is just not going to do the job, we 
need adequate rules of engagement so we can actually win?
    Mr. Gorka. Absolutely, absolutely. There are, on the 
unclassified side, one can find stories of ISIS targets not 
being engaged because the individual who has eyes on the pilot 
or what-have-you was not allowed to engage unless somebody in 
Washington had given him the all-clear from the Obama 
Administration.
    During Vietnam we had something called the 8,000-mile 
screwdriver. It got even worse under the Obama Administration 
because that decision, once you have been trained at the cost 
of millions of dollars, taxpayer dollars, whether you are an A-
10 pilot, whether you are a Special Forces detachment leader, 
the decision to engage the enemy once you have the requisite 
intelligence should be taken by that military professional, not 
by a civilian staff who is sitting in the NSC or somebody 
watching a video screen in the DOD.
    So, yes, the operators who I had the honor of working with 
have said they were given the due recognition to execute the 
mission as they had been trained to do, which not only makes 
America more successful operationally but also has a requisite 
effect on the morale of all our fighting forces, Mr. Chairman.
    Mr. DeSantis. Mr. Pregent, don't we need to, at this point, 
though, support people like the Kurds more robustly than we 
have under either Obama or so far under the Trump 
Administration?
    Mr. Pregent. We do. The Kurdish Peshmerga of Iraq have been 
an ally since the beginning, since we entered Iraq. We actually 
entered Iraq in Kurdish areas, and they have been instrumental 
to not only defeating ISIS but also defeating al Qaeda during 
the surge effort and the initial phase of the Iraq war.
    What has happened, unfortunately, under this administration 
is our Kurdish allies have been abandoned. After President 
Trump's October 13th speech declaring that the IRGC in its 
entirety would be declared a terrorist organization based on 
its support for Qasem Soleimani's Kuds Force, within hours 
Qasem Soleimani used his Shia militias--and they had access to 
U.S. tanks and equipment--to move on Kurdish spaces. We should 
have done something about that. It sent a loud message to our 
Kurdish allies, but it also sent a loud message to Qasem 
Soleimani.
    Mr. DeSantis. I think it also hurts our national prestige 
when you have people like Soleimani that have a lot of American 
blood on their hands attacking an ally like the Kurds with 
American equipment left over from the Iraq campaign. We have to 
do a lot better than that.
    The President, I think, has rightfully spoken out in favor 
of the protesters in Iran. What more do we need to do? Because 
when you are talking about fighting Sunni Islamic jihadism, one 
of the problems I had with the Obama Administration is as they 
were doing that, they did do some good things, they were 
passively empowering the Iranians on the ground in places like 
Iraq. We cannot do that.
    So we need to support the protesters. What else should the 
Administration be doing?
    Mr. Pregent. Well, the good thing about this protest, 
initially it started off as an economic protest, but then it 
started complaining about the adventurism from the IRGC Kuds 
Force, the fact that the regime was using that windfall of 
money it received from the JCPOA, the Iran deal, to actually 
export terrorism, to destabilize Iraq, to further destabilize 
Syria, to destabilize Lebanon and Yemen. So what we should do 
is we should go after the IRGC Kuds Force in Syria, in Iraq. We 
can sanction the Supreme Leader's vast fortune, his network 
that he set up of shadow companies to skirt sanctions. Upwards 
of $86 billion goes unsanctioned that the Supreme Leader has 
access to, to conduct these operations with the IRGC and the 
Kuds Force.
    We should also listen to what they are complaining about. 
They are complaining about the Basij. The Basij is the most 
unpopular directorate in the IRGC. It is the organization that 
makes you disappear at night if you protest the government. 
There are a lot of things we should do. We should encourage our 
Iraqi allies to increase their Internet bandwidth to allow 
messages to get out of Iran. We should also do that with other 
neighbors that border Iran, basically hold the regime 
accountable for pressure on the Iranian people, but also 
pressure our European allies to voice their concerns.
    Mr. DeSantis. Our time is up, but I think 100 percent we 
need to be doing that, and I would just say before I yield to 
the gentleman that ISIS is not the sum total of militant 
Islamic terrorism. It is a part of it. There are other Sunni 
jihadist groups, and then the Iranian-inspired Shia jihadist 
groups. This is a good step. We have to do more.
    God bless those people fighting off that Iranian regime. If 
they could do something there, that would be such a positive 
environment. But we are going to continue to have to deal with 
this problem in the United States and in places like Western 
Europe. I am concerned about Las Vegas, the lack of 
information. ISIS claimed credit for that. We have no evidence 
either way, but no evidence on anything bothers me, and ISIS 
typically when they claim these things, they typically are 
borne out. So that is a very, very important thing to know 
exactly which attacks are being inspired by ISIS.
    With that, I will yield to Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman. I agree on the point of 
supporting our allies in northern Iraq, in Kurdistan. I think 
more can be done. I agree with Mr. Pregent's testimony.
    As a member of this committee, a lot of us have been to 
Iraq multiple times. I have been there 20 times with my 
Republican colleagues going back to 2002, 2001, to the present. 
One of the most remarkable changes that I can see from my early 
trips is that back in the day we had 165,000 U.S. troops on the 
ground in Iraq. That was about our peak, 165,000. The one huge 
change that I think the Obama Administration brought about was 
that he compelled the Kurds and the Iraqi government in Baghdad 
to take responsibility and to carry the fight.
    You can see it in the casualty numbers in the fight against 
ISIS, several thousand Kurdish Peshmerga casualties, 10,000 
Iraqi National Army casualties, and thankfully far, far fewer 
U.S. casualties.
    The change there, though, will not remain if we don't 
support the incumbent government and empower the local 
government to prevent the next iteration, as I think Mr. 
Pregent and all of the witnesses have said. We have to prevent 
the next iteration of ISIS from taking hold.
    It appears to me, Dr. Pape--and thank you for your great 
presentation--supporting the State Department is a key part of 
making sure that the Iraqi government that is in power now that 
has driven out ISIS, including the Kurdish authority in 
northern Iraq, that they are empowered really to provide 
services to those areas that they have liberated. That, I 
think, will be very important. Can you talk about that, please, 
Dr. Pape?
    Mr. Pape. Yes, sir. We need a political strategy to win the 
peace. We have won a military victory. That is only half the 
battle. The task in front of us is the key fight, the real 
fight, which is winning the peace. In order to do that, we need 
a political strategy, and I would just expand on your points 
for just a little bit.
    Number one, we need a political strategy that prevents 
score settling from undermining the military victories we have 
just achieved. You are hearing from Mr. Pregent that we have 
other instances of score settling that could easily take hold. 
So if we just walk away and say, ``Oh, yes, let's let them deal 
with this themselves,'' this is ripe for score settling across 
the board.
    Number two, we need, as you said, direct support so that 
the military victory can be backed up with economic strategies, 
economic policies to empower especially Sunnis, who actually 
are the heart of the problem that we have. When we toppled 
Saddam back in 2003, we didn't just knock off an evil dictator. 
We basically created a situation of massive ungoverned space, 
and the Sunni part of Iraq was the worst. And then with the 
Arab Spring, this spread. Now we had more ungoverned space in 
Syria, and the problem is the Sunnis need a voice in their own 
future. It is not enough to put them back under a repressive 
regime, and we need a political strategy to do that.
    The third thing is we need to mediate more the Sunni/Shia 
divide. This is in Iraq, this is in Syria. The Alawites are 
Shia, of course, as you all know. But in Yemen we have a proxy 
war effectively going on between the Saudis and the Iranians 
inside of Yemen, and if we just let that go, if we don't 
mediate that, what is going to happen is we are going to have 
enormous pools of ungoverned space for those millions of 
Sunnis, which is just going to be ripe for ISIS 2.0 to take 
hold.
    So we really need a political strategy, sir, to win the 
peace.
    Mr. Lynch. Thank you.
    Mr. Pregent, I want to go back to one point that you made 
which I thought was very, very good, the presence of foreign 
fighters being drawn into Iraq. When the U.S. had 165,000 
troops on the ground, foreign fighters were pouring in. But 
when the Obama Administration required Iraqis and Kurds to 
carry the fight, we saw the number of foreign fighters drop 
precipitously. Are those factors correlated?
    Mr. Pregent. Thank you for the question. The key difference 
is when foreign fighter flow was coming into Iraq, it was being 
facilitated by Assad, being facilitated by the IRGC Kuds Force. 
These foreign fighters were coming into staging areas in Syria 
and then being allowed to come into Iraq to carry out attacks 
against Americans.
    The foreign fighter flow in this case was foreign fighters 
and their families to come into the caliphate. ISIS sold them a 
false narrative that it was safe to come, and ISIS quickly 
learned that unless you could shoot down an American aircraft, 
it wasn't safe to plant a black flag. So the foreign fighter 
flow was just a little different, sir.
    Mr. Lynch. Very good. Thank you.
    I yield back.
    Mr. DeSantis. The gentleman yields back.
    The Chair now recognizes the Vice Chairman of the 
committee, Mr. Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman, and thanks for all 
the guests being here today. We appreciate the perspective.
    I guess, Dr. Pape, there is one major area we are in 
agreement on--actually, a couple--the danger of declaring 
victory and walking away. But no factor was more instrumental 
in creating ISIS than doing just that in 2011 in Iraq. We 
created the ISIS caliphate simply by our abandonment of what 
was a good strategy to win the peace in Iraq.
    Having commanded a task force in 2003 and 2004, and having 
been heavily involved in the hunt and capture of Saddam 
Hussein, I am very familiar with what our objectives were at 
the beginning of that venture. We did not leave ungoverned 
space, sir. In fact, after the surge in 2008, we stabilized it. 
We had every member of the military here begging to continue to 
have a presence, at least a brigade combat team, to draw down 
but leave a presence so that we could use U.S. advisers and air 
power.
    Instead, we abandoned it. And what did that do? It created 
Sunni Baathists, who now, having seen Iranian influence in 
Baghdad, they would no longer be accommodated and they created 
this narrative that they could go out and now have a better 
way, that there was no accommodation, there was no future for 
Iraq, and we began to see it unravel at the seams.
    How do I know? Because I am heavily invested there. I still 
have friends there.
    Whatever saving we thought we had in terms of treasure and 
troops we lost when it unraveled. When we lost friends in 
Tikrit, Samara, Hawija, all the way up to Mosul and Tal Afar, 
all of it unraveled at the seams. Whatever lives were spared in 
the U.S. military were more than compensated by human suffering 
on a grand scale with a million people in Mosul who lived 
torturous lives under ISIS. We saw barbarians gain power, and 
guess who was helping administrate that? We sat and wondered 
that they had currency or that they had administrative skills 
in the occupied territories. Guess who was doing that? The very 
people we arrested, the very people we incarcerated, the very 
terrorists that we tracked down and captured. The Sunni 
Baathists were those that were creating that.
    So I agree, we shouldn't declare victory and abandon 
anything.
    I am very concerned about a narrative that the United 
States is involved with indiscriminate bombing. I find it as a 
warrior offensive, and here is why. It assumes a lack of 
training. There is no military more trained on targeting than 
the United States military, period. There is none. No one 
spends more treasure and more training effort and more legal 
classes, morality classes, than the United States military in 
terms of targeting.
    It also assumes a lack of technology. We would rather spend 
100 times the cost of a bomb so that we can put it in the 
correct place than we would to make 100 bombs and hope that we 
just hit it.
    It also assumes a lack of morality on the warrior. The 
warrior, perhaps more than any politician or college professor 
or anyone else, when they look down the rifle sights or the 
crosshairs of any weapon, they take dead serious that they hold 
in their hands the taking of human life. How do I know this? 
Because for me, sir, it is not academic, it is experiential. I 
have been there. I have done that. I have had to take human 
life. It is not pleasant, but it is not done indiscriminately.
    When we see these videos and we see things like that--okay, 
do you want to see dumb bombs? Do you want to see the hitting 
of water works? Do you want to see the hitting of hospitals? Do 
you want to see all of that? Just go to the Russian targeting 
and Assad's air force targeting and you will find examples of 
all of that, to include the examples of the footage that we see 
in these ISIS videos.
    One, we should not, nor should our national media, 
propagate such propaganda by using it as B-roll and showing 
these people running around, sneaking around in their tennis 
shoes and standing on burning equipment as if they are heroes 
or something. That is offensive. And as Americans, we should 
not allow that to happen.
    Instead, what we ought to do is back up the Iraqi people, 
back up the free Syrian people, back up those that have been 
trapped by this torturous jihadist, absolute absurdity that we 
see with barbarians sawing off the heads of people, killing 
children, killing women.
    And you know what? Thank God for our military. We can 
debate the politics all day long, but we should never, ever 
assume that it is our warriors indiscriminately taking human 
life on battlefields.
    And with that, Mr. Chairman, I don't apologize for not 
having any questions, but I yield back my time.
    Mr. DeSantis. Well, I appreciate that, Mr. Vice Chairman. I 
know your experience ----
    Mr. Pape. Mr. Chairman, may I respond?
    Mr. DeSantis. I will recognize Mr. Welch for 5 minutes.
    Mr. Welch. Thank you very much.
    First of all, thank you for your service and for your 
statement of support for our military. I agree with what you 
said about the military. Where I think we have a problem is 
with the politicians who sometimes give the military a mission 
that we don't support or we don't sustain.
    But one of the big questions I have, because I do disagree 
with some of your analysis, the one was the question on Iraq 
and the wisdom of going in. We are not going to cover that 
today. Two was the wisdom of totally unraveling the Sunni 
governing structure once we did take Baghdad, again a political 
decision made by the leader of that. So it totally created a 
vacuum.
    But three, the long-term question, and this is I think a 
real dilemma. The military will do the job we give them to do. 
They will do it with honor, professionalism, and integrity. But 
then we added a new mission for the military in Iraq, and that 
was nation-building, and frankly I have a question as to 
whether that is an appropriate job for the military. Is it a 
reasonable expectation for warriors to be required to 
essentially build a nation?
    On the other hand, if there are gains that our military 
makes, they have to be consolidated, so just leaving the field 
accentuates that vacuum. But, as I recall, one of the reasons 
that we didn't stay was not so much an unwillingness even on 
the part of the Obama Administration but an unwillingness on 
the part of the Baghdad government to acknowledge that the rule 
that would apply to our troops would be American law and 
American military law, as opposed to Iraqi law, and we were not 
going to allow our soldiers to be put in that kind of jeopardy 
in that political environment. That is my take on it.
    But I will ask this question, and I will start with you, 
Dr. Pape. How do we get this balance between avoiding the 
problem that Mr. Knight said, you get these battlefield gains 
and then you leave, and then you lose them all, but do that 
short of taking on the responsibility of full-scale nation-
building that costs hundreds and hundreds of billions of 
dollars, something that we are continuing to do in Afghanistan?
    Mr. Pape. The first step is to avoid this false dichotomy 
that it is either nation building or no political strategy 
whatsoever.
    Mr. Welch. Can I interrupt? Congressman Russell, sorry. I 
was saying your name wrong.
    Mr. Russell. Oh, thank you. Look, when we went into Iraq, 
for example, we had five very clear objectives. It was defeat 
Saddam's army, and then it was to kill or capture Saddam 
himself, it was to stabilize the area and key infrastructure, 
and then it was to set the conditions for free elections and 
nascent institutions, and then they could rebuild governance 
for themselves.
    How do I remember all five of those things? Because it was 
very, very clear to us when we went in. And you know what? That 
was the spring of 2003. Every one of those objectives we met.
    I think part of it--and I totally agree with you and even 
find myself in agreement with many of Dr. Pape's statements. 
But as we debate the politics of it here, let's have a crystal-
clear view of what created and got us there. It was 
intransigence. It was abandonment. Our State Department has to 
be involved with that, as well.
    Mr. Welch. I agree with that. Thank you, Congressman 
Russell.
    Go ahead.
    Mr. Pape. The first step, I think, is to see that it is a 
false dichotomy that it is either nation building or no 
political strategy. A good example of the middle ground that we 
need to navigate is Bosnia in the 1990s. I am sure many of you 
know that for years there was an awful civil war occurring, '92 
to '95, in Bosnia. Well, there is no civil war there now. It is 
actually quite stable.
    How did that happen? That happened not because we went in 
to nation-build Bosnia, but it is also not because we just 
walked away. It is because we navigated a political strategy 
that really worked with the three different warring factions, 
and that is why that is stable. That is a really good example, 
and it is one that we should be using for the future.
    Sir, I would also like to say that I am very pro-military. 
I worked with the U.S. Air Force for three years in the 1990s. 
I was one of the faculty that helped stand up the School of 
Advanced Air Power and Space Studies that now exists to this 
day. I educate to this day; the Air Force and the Army sends me 
military officers to get Ph.D.s. Some of my military officers, 
one of whom came to the University of Chicago, is running Air 
Force intelligence in South Korea. One is commanding U.S. 
forces in Syria right this second. So I absolutely believe we 
have the best men and women with the best morals that are 
involved in the military.
    The other thing I would like to say is you and I have an 
awful lot that we should go and talk about because when we 
toppled Saddam, we had objectives but not a plan for the 
Sunnis, which opened the door to AQI. And then what happened is 
we had this false idea that they were all religious. Well, I 
was one of the people with my work, coming to Washington dozens 
of times to speak with NSA, CIA, our Secretary and Deputy 
Secretaries of Defense to argue for what became the Anbar 
Awakening. So I wasn't just loosely doing this from Chicago. I 
came to speak to our 3rd ID in February 2007 before they went 
into the surge in Baghdad for two hours in front of all their 
military officers to talk specifically about their strategy in 
the different neighborhoods in Baghdad.
    I fully believe we need to not have this repeat of a 
problem that we let it unravel.
    Mr. DeSantis. The gentleman's time has expired.
    The Chair notes the presence of our colleague from North 
Carolina, Mr. Meadows, and I ask unanimous consent that he be 
allowed to fully participate in today's hearing.
    Without objection, so ordered.
    The Chair will now recognize the gentleman from Kentucky 
for 5 minutes.
    Mr. Comer. Thank you, Mr. Chairman.
    Dr. Gorka, it is a pleasure to have you here today. I have 
a few questions for you. First of all, in your opinion, what 
should our level of support for the Iraqi government be moving 
forward?
    Mr. Gorka. Thank you. The level of support in Iraq isn't 
about the Iraqi government. I am going to get technical for a 
moment here, but bear with me. The outline of this argument is 
in the Military Review article that I have given to the 
committee.
    In the United States U.S. Army doctrine, there are two 
types of function that fall under irregular warfare. One of 
them is counterinsurgency. Everybody is familiar with that, the 
so-called Petraeus doctrine, Field Manual FM 324. The other 
one, which is less well known, is called Foreign Internal 
Defense. It is one of the core missions that the Green Berets 
were created to execute.
    America is not good at counterinsurgency writ large because 
we are not an empire. Counterinsurgency is what empires do on 
their own soil, whether it is France in the northern Akwa Akpa 
in North Africa, which became Algeria, or whether it is the 
United Kingdom in Northern Ireland or elsewhere. What we are 
exceptionally good at is foreign internal defense such as El 
Salvador, such as Colombia.
    It is not about how we support or how much we support the 
Iraqi government. It is about how everybody who needs to be 
part of the solution in Iraq is part of the solution. The great 
test--I think it was the Iraqi member who mentioned this--is 
now the political objective.
    Iraq, whether or not we invaded under correct objectives or 
not, is irrelevant. We did, and we are there, and we are 
assisting Iraqi forces. As a former African American general 
said, you break the china in the china shop, you have to fix 
it. So how do we do that?
    We have to have our local partners, all of them, not just 
the Baghdad government, be part of the solution. The objective 
is a very simple one, sir. Everybody who lives in Iraq has to 
agree that living together in a functioning Iraq is better than 
a continued civil war or instability. It sounds simple, but as 
Clausewitz said, war is simple but not easy.
    So the challenge is not how much we support Baghdad but the 
following question, as Mr. Pregent has rightly demonstrated, 
that we must not allow Baghdad to become an appendix of Tehran, 
and we have allowed it to do so for far too long. We have to 
have our local Sunni allies, not just from Iraq but from the 
region, such as Egypt, such as Jordan, buy into the future of 
Iraq and assist them to stabilize the region.
    All too often--and I will end on this--our successes 
against the Sunni jihadists in Iraq have led to the Shia 
jihadists, such as the IRGC and the Kuds Force, profiting from 
those successes. So the goal is to support Baghdad as much as 
possible while supporting our other partners even more.
    Thank you, sir.
    Mr. Comer. That leads me to my next question, Dr. Gorka, 
and I get asked this a lot. Should Americans expect to be in 
Iraq indefinitely?
    Mr. Gorka. A great question. In my time in the White House 
as strategist to the President, I always reminded people of the 
question number one of strategy: Why should we care? It is a 
very simple question. Some nations--I know it is not 
politically correct. Some nations are more important than 
others. It is called life. Iraq is a geo-strategically 
important nation.
    How long should we expect to be there? Let's go back to the 
mission set. Why are we there? To make sure that that part of 
the world is not used to plan and execute attacks against us 
here in America or against our partners and allies. That is the 
metric.
    How long does that take? How long is a piece of string? But 
at the end of the day, it is much more effective to help our 
local Sunni partners effect that stability than to have U.S. 
forces in U.S. uniforms that are targets on the ground be there 
for a long period of time. So the ideal situation is, again, 
foreign internal defense, a very small footprint of trainers 
and advisors who help our local partners execute that 
stabilization mission.
    And if I may, with regards to the parallel to Bosnia, 
Bosnia and the Balkans is not a good example of strategy. I 
don't know when Dr. Pape was last there, but Bosnia has become 
a hive of recruitment for Iran and it is a hotbed of extremism 
today. It may not be a civil war as it was in the 1990s, but 
Bosnia is not solved in any way, shape, or form.
    Mr. Comer. Thank you, Mr. Chairman.
    Mr. DeSantis. The gentleman yields back.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Jordan, for 5 minutes.
    Mr. Jordan. I thank the Chairman.
    Dr. Gorka, in his testimony Dr. Pape basically said that 
not much of the credit should go to the Trump Administration, 
it should also go to the Obama Administration. In fact, he said 
in his testimony, ``The Obama Administration reacted quickly 
and decisively, leading a coalition to use air power like a 
hammer to smash numerous ISIS military offensives and contain 
it,'' talking about how the Obama Administration did an amazing 
job dealing with ISIS, and I think his point was terrorism at 
large.
    Do you agree with that assessment of Dr. Pape?
    Mr. Gorka. Not in the slightest. It makes for a good 
PowerPoint visual, but it wasn't an anvil and a hammer. It was 
a scalpel used now and again in a fashion in which the 
Commander in Chief was not interested in winning.
    Will is key to success. Remember, the former senator from 
Illinois campaigned for president under a very simple bumper 
sticker when it came to national security. Let's remind 
ourselves, 10 years ago he said Afghanistan was the good war, 
Iraq was the bad war. Once he became Commander in Chief, he was 
locked into that narrative, which meant sooner or later, if he 
was going to be true to his campaign pledge, we had to leave 
Iraq.
    And I agree with the statements already made, we are not 
responsible for the creation of ISIS, but the decision of the 
then-Commander in Chief to leave without a SOFA--we could have 
gotten a SOFA. It is not a question. America has always managed 
to get Status of Forces Agreements. We could have got one. 
Leaving without a SOFA meant that ISIS could become the most 
powerful jihadi organization of the modern age.
    Talking to the military, it is very simple: the Commander 
in Chief and his White House did not have the will to win 
because they had made an ideological decision that Iraq was the 
wrong war.
    Mr. Jordan. Mr. Pregent, what would be the--I mean, if you 
had to summarize the legacy of the Obama Administration when it 
comes to foreign policy and dealing with terrorism, what would 
you say that it was?
    Mr. Pregent. Well, unfortunately, the call saying that ISIS 
was a JV team was unsettling for a lot of us that followed the 
Zarqawi movement from the al-Qaeda model to the ISIS model.
    What I would say to the Obama strategy against ISIS, Mosul 
was left to ISIS for two-and-a-half years, to 4,000 ISIS 
fighters. A population of 1.6 million Sunnis was left under 
brutal control by this terrorist army for two-and-a-half years 
without a single effort to call up the 30,000 Sunnis that 
Maliki had kicked out of the Iraqi security forces. Fallujah 
was left to ISIS for three years.
    So if you look at the strategy, there was no attempt in the 
beginning to build a Sunni force like we did during the surge, 
the awakening, the Anbar Awakening, the Sons of Iraq. We 
couldn't do it because the Administration had embedded 5,000 
Americans with a predominantly Shia force that was heavily 
influenced by the IRGC Kuds Force. It basically made our 
advisers hostages to our policies in Iraq. If we called for the 
standing up of a Sunni force, it would put our soldiers in 
harm's way.
    Mr. Jordan. Broaden it out a little bit. What are things 
like today in Libya?
    Mr. Pregent. It is ungoverned space. ISIS can do what it 
wants ----
    Mr. Jordan. Wasn't that supposed to be--I had the privilege 
of serving on the Benghazi committee, and my read on all of it 
was that Libya was supposed to be the Obama Administration's 
shining example of foreign policy success, Secretary Clinton, 
the State Department's example of how it was going to work: 
throw out a dictator, usher in the Arab Spring, put no troops 
on the ground, and this was how it was going to work. And what 
we wound up with was that tragedy on September 11th, 2012, and 
then this narrative where, because it happened 56 days before 
an election and it went against their narrative during the 
campaign, they had to create this story that it was somehow 
inspired by a video, a video-inspired terrorist attack.
    So when I think about the legacy of the Obama 
Administration relative to terrorism and what Dr. Pape said in 
his opening comment, I just see an entirely different scenario 
altogether. Am I accurate, Dr. Gorka?
    Dr. Gorka, and then Mr. Pregent.
    Mr. Gorka. I will be very blunt, as blunt as you have been, 
sir. For eight years, narrative was more important than 
reality. It wasn't the reality on the ground. It was spin. And 
when you have the deputy national security adviser whose 
qualifications are a Master's degree in fictional writing, it 
tells you everything you need to know.
    Mr. Jordan. Mr. Pregent, you get the last word.
    Mr. Pregent. I would just say that the message that was 
sent to the terrorists was an unserious one, and it actually 
led to ISIS and other groups.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. DeSantis. The gentleman's time has expired.
    The Chair now recognizes the gentleman from California for 
5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. Thank you to the 
Ranking Member, and thank you to the panelists for this 
informative hearing.
    So, Dr. Pape, I would sort of like to talk about why we can 
learn lessons from what has happened on the military side. It 
is more sort of where we go from here. So recently in the San 
Francisco Bay area, where I am from, the FBI fortunately caught 
a disaffected gentleman who is a former Marine Corps veteran 
who was working through social media to plan to blow up Pier 
39, a very touristy area, over the Christmas holiday.
    So in the context of--I am confident that the American 
military is adjusting with our partners to take care of a 
military threat, but it is the radicalization, the use of 
social media to turn Americans into radicals and to appeal to 
this radicalization. To me, it is the combination of 
disaffected human beings wherever they are in a globally 
connected community.
    So talk to me a little bit about how sophisticated their 
ongoing operations are vis-a-vis social media.
    Mr. Pape. Absolutely, sir. This is something I study; and 
our center, CPOST, a half-dozen full-time people, 40 people 
work on this problem, the propaganda problem. And I was just at 
our U.S. Attorney's office in Chicago just a couple of days ago 
giving a two-hour briefing to the new attorney general for 
Chicago who has just come in.
    This is a serious problem that the end of the caliphate has 
not yet stopped, if it is going to stop at all. So our national 
counterterrorism representative for the Midwest started that 
briefing by giving a two-minute statement saying that we have 
seen no decline in the pace of radicalization inside the United 
States with the collapse of the caliphate. In fact, Saipov just 
did the attack in New York in November when most of the 
caliphate was gone.
    So you are exactly right, sir, to be concerned.
    The fundamental problem that we are seeing is that inside--
the threat we face here at home is now a home-grown threat. I 
have looked at all 158 cases of individuals indicted in U.S. 
courts for ISIS-related offenses or carrying out attacks inside 
the United States. Two-thirds of those individuals were born in 
the United States. The other one-third are immigrants, but they 
are people who have been here for many, many years. Over 83 
percent are watching these jihadi videos as the gateway in. 
Lots of other things are happening too, but these videos are 
the gateway that is starting the process. Saipov himself, the 
guy who did New York, says it was the videos that radicalized 
him.
    So, sir, we have to be very vigilant. We can't just sort of 
think, oh, yes, we dealt with ISIS and it is dead and we are 
going to walk away. We really have to pay attention here inside 
because the video propaganda doesn't die with the caliphate. 
The video propaganda is really difficult to get off the Web. It 
can go to the Dark Web. There is a whole lot more to say about 
this, but we are nowhere near in a position to think we have 
cleansed the threat, and it really would be kind of foolish to 
think that internally, yes, we are done, check that box.
    Mr. DeSaulnier. So to go to the second part about 
encryption, as we develop new technologies and they learn from 
those technologies or use them, our struggle here in Congress 
to preserve American traditional civil liberties but also do 
all our due diligence to make sure we are making people safe 
here in America and in the West from terrorist attacks, could 
you talk a little bit about that, particularly encryption 
applications?
    Mr. Pape. Yes. A few years ago there was a terrific panel. 
Michael Morrel was on the panel. It was a commission. Jeff 
Stone, a professor from the University of Chicago was on this, 
to really look closely at our steps of international phone 
calls to see whether or not--because this was Snowden and so 
forth, became quite a big deal. We need a new such major effort 
to really look closely at exactly where we should move that 
bubble.
    Jeff Stone, a former dean of the University of Chicago Law 
School, professor of civil liberties, provost--we need to bring 
together security experts, legal scholars to really look 
closely at exactly--because the fact of the matter is we are 
developing more encryption technology day by day, and the 
terrorists are only just a few weeks behind.
    Mr. DeSaulnier. Let me ask you one last question, Dr. Pape. 
So in the context of sewing more radicals in Syria or Iraq, 
what are our responsibilities to go in and rebuild those 
countries, particularly Syria?
    Mr. Pape. It is tremendously in our strategic interest. 
There are moral issues, sir. But the fundamental problem is we 
have created, over a period of many years, since 2003, enormous 
governance problems for Sunnis in Iraq, and now the spillover 
effects in Syria, and unless we take diplomatic efforts with a 
sustained political strategy to, number one, prevent score 
settling among the folks we actually worked with; number two, 
to have more direct economic support; and number three, to 
mediate the Sunni/Shia divide, we are going to be right back 
here again, or very likely, in just a few years.
    Mr. DeSaulnier. Thank you.
    Thank you, Mr. Chairman.
    Mr. DeSantis. I thank the gentleman.
    The Chair notes the presence of our colleague, the 
gentleman from Illinois, Mr. Krishnamoorthi. I ask unanimous 
consent that he be allowed to fully participate in today's 
hearing.
    Without objection, it is so ordered.
    The Chair now recognizes Mr. Hice for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Pregent, let me ask you, all the bureaucratic processes 
that were added under the Obama Administration, can you address 
through the international security team, can you address how 
that impacted the military?
    Mr. Pregent. Well, commanders were being questioned by 
aides in the National Security Council whether or not they 
should actually go forward with a target. One of the biggest 
complaints coming from combatant commanders was that they 
weren't necessarily trusted to make those decisions. Initially, 
again, we talk about aircraft flying with munitions that 
weren't able to drop their bombs when they actually had targets 
of opportunity on the ground.
    The biggest complaint is the targets of opportunity. That 
is a small window in which a commander has an opportunity to 
hit ISIS and hurt it, and when you have to call back to D.C. 
for permission to do it because there happens to be an oil 
tanker in the convoy, the ISIS convoy, that not only allows 
that target of opportunity to go away but it sustains a 
terrorist organization.
    Remember, ISIS early on, in 2015, was estimated to receive 
$500 million a year in the illicit oil trade, and that was 
because they were able to simply move during the daytime. 
Initially, one of the biggest problems with the ROE as it 
relates to getting permission from D.C. to do something was 
that ISIS could move around freely during the daytime without 
being hit. Those convoys who were flying black flags after 
taking territory should have never been allowed to move without 
being hit, and the biggest complaint was that they had to get 
permission from D.C.
    Mr. Hice. Okay, so you are saying that our commanders were 
not trusted, and with that the National Security Council, they 
were actually making decisions about strikes rather than our 
leaders in the field?
    Mr. Pregent. Right. They were delaying the decisions, which 
made the targets of opportunity go away, and then they were 
questioning whether or not they should be attacking convoys 
with oil in them anyway due to environmental concerns.
    Mr. Hice. This seems like insanity to me. So what other 
decisions was the National Security Council making that should 
have been made by our commanders on the field?
    Mr. Pregent. Well, I can only contrast the difference 
between the Obama and Trump Administrations. Combatant 
commanders now can make those decisions on the ground. They are 
able to use lethal force to degrade ISIS, to defeat ISIS, and 
they are trusted, and that should be no surprise. Both H.R. 
McMaster and Secretary Mattis were both combatant commanders in 
Iraq. They didn't have to ask D.C. for permission to do 
anything.
    So it is good that they pushed it down to combatant 
commanders in Iraq and Syria to be able to do these things 
without asking permission, as well as Afghanistan. So that is 
the key difference.
    Mr. Hice. All right. So with that, obviously, there has 
been an enormous difference in impact and what has been 
accomplished from the previous administration and the rules of 
engagement versus now.
    Mr. Pregent. Yes. ISIS, the leadership, once we initially 
had success with our information operations campaigns. In 2015, 
we talked about an imminent move on Mosul. That resulted in 
ISIS highlighting targets and convoys of ISIS fighters and 
equipment to leave Mosul and go to Syria during the daytime 
without being hit. That is not happening now. We did not see 
ISIS try to reinforce Mosul. We did not see ISIS try to 
reinforce any of the territories that were taken under the 
Trump Administration.
    One of the key differences also is every piece of territory 
that ISIS lost under the Obama Administration using this proxy 
force of a predominantly Shia Iraqi security force with IRGC 
militias, there was a negotiated evacuation of ISIS fighters. 
You saw that in Fallujah with convoys leaving Fallujah. You saw 
that in Ramadi. Initially in Mosul we saw that, but the 
combatant commanders on the ground wanted to close off Mosul so 
nobody could get out, and that was one of the differences that 
I think has expedited the loss of territory for ISIS.
    Mr. Hice. The way you phrased it a while ago was extremely 
strong, where our commanders were not trusted. That is just 
stunning to me. Whereas now they are trusted, and the 
difference of outcome between those two points of view is 
enormous.
    Mr. Pregent. I will just go back to what Secretary Gates 
did in Afghanistan. He walked into a Joint Special Operations 
Center and saw a phone line connected directly to the NSC. He 
said what is that for? They said it goes back to the NSC. He 
said rip it out of the wall. If they call you, if the White 
House calls you, you tell them to call me. That is a key 
difference.
    Mr. Hice. That is excellent. Thank you for your 
testimonies, each of you.
    Mr. Chairman, I yield back.
    Mr. DeSantis. The gentleman yields back.
    The Chair now recognizes the gentleman from Illinois for 5 
minutes.
    Mr. Krishnamoorthi. Thank you, Chairman DeSantis, and thank 
you, Ranking Member Lynch, for allowing me to participate in 
today's hearing. And thanks to all of you for coming today.
    On January 27th, 2017, the White House issued a Holocaust 
Remembrance statement that made no mention of the Jewish 
people, Jewish deaths, or the Nazi policy of Jewish 
extermination. This is a notable break from past 
administrations. President George H.W. Bush's Remembrance 
statement was explicit. ``On Yom HaShoah, Holocaust Memorial 
Day, Jews recall the Nazi atrocities that claimed the lives of 
six million of their fellow Jews.'' President George W. Bush 
was just as clear in his statement. The Holocaust was ``a 
policy aimed at the annihilation of the Jewish people.''
    It is important to accurately remember the past, even more 
so in these types of situations. According to Holocaust 
historian Deborah Lipstadt, minimizing the Third Reich's focus 
on Jews is a common tactic of Holocaust deniers and neo-Nazis.
    Dr. Gorka, on Monday, February 6th, 2017, Michael Medved 
asked you on CNN if President Trump's statement was ``at least 
questionable in being the first such statement in many years 
that didn't recognize that Jewish extermination was the chief 
goal of the Holocaust.'' Your response was, ``It's a Holocaust 
Remembrance statement. No, I'm not going to admit it because 
it's asinine.''
    Dr. Gorka, it wasn't asinine for President George H.W. Bush 
to recognize Jewish extermination in his Holocaust Remembrance 
statement, was it?
    Mr. Gorka. I don't know if the good member, Mr. 
Krishnamoorthi, has arrived at the wrong hearing. I was invited 
here to discuss the Trump policies towards the defeat of ISIS. 
If you wish to lower this meeting to a ----
    Mr. Krishnamoorthi. Sir, please answer my question. Did you 
understand my question?
    Mr. Gorka. Well, since it was so inaccurate, it is hard-- 
Michael Medved does not work for CNN, number one. Number two, 
you have arrived 75 minutes into this hearing and may have 
arrived at the wrong hearing.
    So, no. I would like to ask you, do you know ----
    Mr. Krishnamoorthi. I will assume that you are not prepared 
to answer the question.
    Mr. Gorka. If you keep interrupting me--would you like ----
    Mr. Krishnamoorthi. Mr. Gorka, I will reclaim my time. Dr. 
Gorka, please answer the question. Was it asinine of President 
George W. Bush to recognize Jewish extermination in his 
Holocaust Remembrance statement?
    Mr. Gorka. It is asinine ----
    Mr. Krishnamoorthi. Please answer the question.
    Mr. Gorka. Will you hector me, or allow me to answer?
    Mr. Krishnamoorthi. I allowed you.
    Mr. Gorka. Will you continue to hector me while I am to 
answer?
    Mr. Krishnamoorthi. Will you answer the question?
    Mr. Gorka. I am trying to, but you are interrupting me.
    Mr. Krishnamoorthi. Please do so.
    Mr. Gorka. The President's grandchildren are Jewish. How 
asinine is it to posit that his White House would do anything 
not to recognize the tragedy of the Holocaust? That is my 
answer.
    Mr. Krishnamoorthi. Dr. Gorka, are you saying that it was 
not questionable that it was asinine to mention that this 
Holocaust Remembrance statement omitted the mention of Jews?
    Mr. Gorka. It is asinine to posit that a Holocaust 
Remembrance statement is not about the Holocaust. Yes, I hold 
that line; it is asinine then, it is asinine now.
    Mr. Krishnamoorthi. So you stand by your statement.
    In recent years there has been a disturbing rise in far-
right parties in Europe, from AFD in Germany to Marie Le-Pen's 
National Front in France, to Jobbik in Hungary. In fact, the 
President of the European Jewish Congress, Moshe Kantor, 
described Jobbik as ``unabashedly neo-Nazi'' in an October 1st, 
2014 interview with the Times of Israel.
    Dr. Gorka, in an August 6th, 2007 interview with Hungary's 
Echo TV, when asked if you supported the formation of a militia 
run by Jobbik, you responded ``that is so.'' You explained this 
militia as a necessary response to ``a big societal need.'' 
You, of course, stand by this statement; correct, Dr. Gorka?
    Mr. Gorka. No, because I never made that statement. That 
was a 12-minute interview which had been scurrilously edited 
down to two-and-a-half minutes. That is a lie, sir, on the 
record. It is a distortion of the facts. I reject it. And my 
father, who defended Jews during World War II as a teenager, 
has been recognized on the record by Rabbi Billet and the 
Tablet magazine, the most important Jewish magazine, as having 
done so. Sir, I reject your absolute smear campaign ----
    Mr. Krishnamoorthi. You can argue all you want with the 
record, sir.
    Mr. Gorka. It is an edited interview.
    Mr. Krishnamoorthi. You can debate with me on television 
about this record.
    Mr. Gorka. It is 13 minutes long.
    Mr. Krishnamoorthi. We will hand this to the reporter so 
they can verify what you said.
    Mr. Gorka. Absolutely, and I will share with them ----
    Mr. Krishnamoorthi. Sir, on August 15th, 2007, the World 
Jewish Congress ----
    Mr. Gorka. Mr. Chairman, are we here to discuss ISIS?
    Mr. Krishnamoorthi.--called this militia a serious 
violation of human rights. Do you still support this 
organization?
    Mr. DeSantis. The gentleman's time has expired. I 
appreciate that. That was a little bit far afield. But I will 
say, if we are going to be bringing up things related to 
Israel, this subcommittee has taken the lead on not only 
framing the issue of recognizing Jerusalem as Israel's 
capital--I led the trip last March where we looked at the 
different sites that will be ready. We were disappointed when 
the President didn't announce that in May, so we had another 
hearing here in November stressing that this is something that 
he should follow through on. And to his great credit, he did 
that, and I am eagerly anticipating news from the State 
Department about how they are going to implement that 
directive. We are not going to be satisfied if they take years 
to do it. It needs to happen this year, and we need to have a 
temporary site up and running.
    So we are going to follow that issue 100 percent. I just 
give the President a lot of credit because we haven't talked 
about it since we did our hearing in November. That was a big, 
big deal, long overdue. Other presidents have promised it. 
Jerusalem is and always has been the capital of the Jewish 
people.
    And with that, I want to thank the witnesses again for 
appearing with us today.
    The hearing record will remain open for two weeks for any 
member to submit a written opening statement or questions for 
the record.
    If there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 11:33 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
